No.

JfiORE

*upreint (gotta of tip gotta *Wits
IN RE SUPERVISED ESTATE OF AL KATZ:
LAWRENCE T. NEWMAN

Petitioner,
v.
ROBERT W. YORK

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE SUPREME COURT OF INDIANA

CERTIFICATE OF SERVICE
I hereby certify that three (3) copies of the foregoing Petition for Writ of
Certiorari have been served upon the following party of record by first class United States
Mail, postage prepaid, this 11th day of July, 2019:
Robert W. York
Robert W. York & Associates
7212 North Shadeland Avenue, Suite 150
Indianapolis, IN 46250
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on...T

( 2:61.cf
AWRENCE T. NEWMAN

Pro Se
4102 66th Street Circle West
Bradenton, FL 34209
(317) 397-5258

